No. 20-

INTBE

hpmnt C!tnurt nf t4t lnttth &tatts
BOBBY LEE HAMPTON,
V.

Petitioner,

DARREL VANNOY, WARDEN

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FIRST JUDICIAL DISTRICT COURT OF
CADDO PARISH, LOUISIANA

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 10th day of May, 2021, all parties required to be served have been served
replacement copies of the Petition for a Writ of Certiorari in this matter by overnight
courier to the addresses below. These replacement copies are identical to the booklets
submitted on May 7, 2021, with the exception of a "Capital Case" designation, which has
been added to the cover and Question Presented page.
ELIZABETH B. MURRILL

JAMES E. STEWART, SR.

LOUISIANA DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL

SUZANNE M. WILLIAMS

P0Box94005
Baton Rouge, LA 70802

Shreveport, LA 71101

Solicitor General

District Attorney

Assistant District Attorney

1885 N. Third St.

501 Texas St., Fifth Floor

(225) 326-6766

jstewart@caddoda.com
smwilliams@caddoda.com

murrille@ag.louisiana.gov

(318) 429-7618

Pt?J::l24~~1~

SETH P. WAXMAN

Counsel ofReccrrd

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania A venue NW
Washington, DC 20006
(202) 663-6000

seth.waxman@wilmerhale.com

